    Management Advisory Report



Single Audit of the State of North
Carolina for the Fiscal Year Ended
          June 30, 2012




     A-77-14-00006 | December 2013
Single Audit of the State of North Carolina for the Fiscal Year
Ended June 30, 2012
A-77-14-00006
December 2013                                                            Office of Audit Report Summary

Objective                                Findings

To report internal control weaknesses,   The single audit reported:
noncompliance issues, and
unallowable costs identified in the      •   The DDS made inappropriate payments to consultative
single audit to Social Security              examination (CE) providers totaling $235. We made
Administration (SSA) for resolution          recommendations to SSA in a prior report for corrective action
action.                                      on this finding. We confirmed that SSA had taken appropriate
                                             actions to address this finding. Therefore, we will not repeat the
Background                                   recommendation in this report.

The North Carolina Office of the State   •   The DDS vendor file included providers who were not eligible
Auditor conducted the single audit of        to perform CEs.
the State of North Carolina. SSA is
responsible for resolving single audit   Recommendations
findings related to its Disability
programs. The North Carolina             We recommend that SSA verify the DDS implemented appropriate
Department of Health and Human           procedures to ensure selection of only approved providers to
Services is the North Carolina           perform CEs.
Disability Determination Services’
(DDS) parent agency.
MEMORANDUM
Date:      December 23, 2013                                                         Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of North Carolina for the Fiscal Year Ended June 30, 2012
           (A-77-14-00006)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of North Carolina for the Fiscal Year ended June 30, 2012. 1 Our objective was to report
           internal control weaknesses, noncompliance issues, and unallowable costs identified in the single
           audit to SSA for resolution action.

           The North Carolina Office of the State Auditor performed the audit. The results of the desk
           review conducted by the Department of Health and Human Services (HHS) concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied entirely on
           the internal control and compliance work performed by the North Carolina Office of the State
           Auditor and the reviews performed by HHS. We conducted our review in accordance with the
           Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
           and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The North Carolina Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. The North Carolina Department of Health and
           Human Services is the North Carolina DDS’ parent agency.




           1
            Single Audit Report for the Year Ended June 30, 2012 (FSA-2012-8730)
           http://www.ncauditor.net/pub4/SingleAuditsList.aspx (last viewed December 11, 2013).
Page 2 - Gary S. Hatcher

The single audit reported:

•      The DDS made inappropriate payments to consultative examination (CE) providers totaling
       $235. 2 The corrective action plan indicates internal controls were strengthened to ensure all
       CE providers will be charged the correct reimbursement rate. In addition, the DDS will take
       action to recoup the inappropriate payments. We made recommendations to SSA in a prior
       report for corrective actions on this finding. 3 We confirmed that SSA had taken appropriate
       actions to address this finding. Therefore, we will not repeat the recommendation in this
       report.

•      The DDS vendor file included providers who were not eligible to perform CEs. 4 The
       corrective action plan indicates the DDS is in the process of cleaning and purging the vendor
       file to ensure only eligible providers are selected to perform CEs.. In the interim, the DDS
       will implement additional internal controls to prevent scheduling with ineligible providers.
       We recommend that SSA verify the DDS implemented appropriate procedures to ensure
       selection of only approved providers to perform CEs.

The single audit also disclosed the North Carolina Department of Health and Human Services
did not comply with Federal cash management requirements and the Treasury-State Agreement. 5
This finding may impact DDS operations although it was not specifically identified to SSA. I
am bringing this matter to your attention as it represents a potentially serious service delivery
and financial control problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                                     Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding 12-SA-84.
3
 SSA OIG, Management Advisory Report, Single Audit of the State of North Carolina for the Fiscal Year Ended
June 30, 2011 (A-77-13-00003), February 2013.
4
    Id. at finding 12-SA-85.
5
    Id. at finding 12-SA-34.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
